September 24, 2021
Hon. Scott S. Harris, Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543-0001
Re:

No. 19-333, Arlene’s Flowers, Inc. v. Washington

Dear Mr. Harris:
The petition for rehearing filed in this case focuses on the Tenth Circuit’s
recent decision in 303 Creative LLC v. Elenis, 6 F.4th 1160 (10th Cir. 2021), and
asks the Court either to grant the petition for rehearing and petition for a writ of
certiorari, or to hold the petition for rehearing pending the filing of a petition for
writ of certiorari in 303 Creative. Reh’g Pet. at 13. The 303 Creative case involves
the same tension between state public-accommodation laws and the First
Amendment’s Free Speech and Free Exercise Clauses. If the Court grants the 303
Creative petition and issues a merits opinion, that decision may warrant a GVR or
summary reversal here.
In the petition for rehearing, counsel asserted that a petition for a writ of
certiorari in 303 Creative “will be filed.” Reh’g Pet. at 12 (emphasis omitted). This
letter is to inform the Court that a petition for a writ of certiorari was filed in 303
Creative on September 24, 2021.
Respectfully Submitted,

Kristen K. Waggoner
Counsel for Petitioners
cc:

Ria Tabacco Mar
ACLU
125 Broad Street, 18th Floor
New York, NY 10004-2400
rmar@aclu.org

Hon. Scott S. Harris, Clerk of the Court
September 24, 2021
Page 2

Noah Purcell
Solicitor General
Office of the Attorney General
1125 Washington Street, SE
P.O. Box 40100
Olympia, WA 98504-0100
noah.purcell@atg.wa.gov

